<html>
<title> - H.R. 1528, THE NATIONAL GEOLOGIC MAPPING REAUTHORIZATION ACT OF 1999, TO REAUTHORIZE AND AMEND THE NATIONAL GEOLOGIC MAPPING ACT OF 1992</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 1528, THE NATIONAL GEOLOGIC MAPPING REAUTHORIZATION ACT OF 1999, 
   TO REAUTHORIZE AND AMEND THE NATIONAL GEOLOGIC MAPPING ACT OF 1992

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON ENERGY
                         AND MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                     JUNE 17, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-37

                               __________

           Printed for the use of the Committee on Resources

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources
                                 ______

                      U.S. GOVERNMENT PRINTING OFFICE
 58-948                      WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado         RUSH D. HUNT, New Jersey

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

              Subcommittee on Energy and Mineral Resources

                    BARBARA CUBIN, Wyoming, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   NICK J. RAHALL II, West Virginia
CHRIS CANNON, Utah                   ENI F.H. FALEOMAVAEGA, American 
KEVIN BRADY, Texas                       Samoa
BOB SCHAFFER, Colorado               SOLOMON P. ORTIZ, Texas
JIM GIBBONS, Nevada                  CALVIN M. DOOLEY, California
GREG WALDEN, Oregon                  PATRICK J. KENNEDY, Rhode Island
THOMAS G. TANCREDO, Colorado         CHRIS JOHN, Louisiana
                                     JAY INSLEE, Washington
                                     ------ ------
                    Bill Condit, Professional Staff
                     Mike Henry, Professional Staff
                  Deborah Lanzone, Professional Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 17, 1999.......................................     1

Statements of Members:
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming, prepared statement of....................    18
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     1
        Additional material submitted by.........................    34
    Rahall, Hon. Nick, a Representative in Congress from the 
      State of West Virginia, prepared statement of..............    36
    Underwood, Hon. Robert A., a Delegate in Congress from the 
      Territory of Guam..........................................    19
        Prepared statement of....................................    20

Statements of witnesses:
    Leahy, Dr. P. Patrick, Chief Geologist, U.S. Geological 
      Survey, U.S. Department of the Interior....................    20
        Prepared statement of....................................    21
        The Coastal and Marine Geology Program for 1999..........    39
    Thomas, Dr. William A., Professor of Geosciences, University 
      of Kentucky, on behalf of The American Geological 
      Association................................................    29
        Prepared statement of....................................    31
        Additional material submitted for the record by..........    46
    Woodfork, Dr. Larry D., West Virginia Geological and Economic 
      Survey, and President, Association of American State 
      Geologists.................................................    26
        Prepared statement of....................................    27

Additional material supplied:
    Text of H.R. 1528............................................     2



 H.R. 1528, THE NATIONAL GEOLOGIC MAPPING REAUTHORIZATION ACT OF 1999, 
   TO REAUTHORIZE AND AMEND THE NATIONAL GEOLOGIC MAPPING ACT OF 1992

                              ----------                              


                        THURSDAY, JUNE 17, 1999

              House of Representatives,    
                     Subcommittee on Energy and    
                                     Mineral Resources,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2 p.m. in Room 
1334, Longworth House Office Building, Hon. Jim Gibbons 
presiding.

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. The Subcommittee on Energy and Mineral 
Resources will come to order.
    This Subcommittee meets today to take testimony on H.R. 
1528, the National Geologic Mapping Reauthorization Act of 
1999, the bill to reauthorize and amend the National Geologic 
Mapping Act.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8948.017
    
    [GRAPHIC] [TIFF OMITTED] T8948.018
    
    [GRAPHIC] [TIFF OMITTED] T8948.019
    
    [GRAPHIC] [TIFF OMITTED] T8948.020
    
    [GRAPHIC] [TIFF OMITTED] T8948.021
    
    [GRAPHIC] [TIFF OMITTED] T8948.022
    
    [GRAPHIC] [TIFF OMITTED] T8948.023
    
    [GRAPHIC] [TIFF OMITTED] T8948.024
    
    [GRAPHIC] [TIFF OMITTED] T8948.025
    
    [GRAPHIC] [TIFF OMITTED] T8948.026
    
    [GRAPHIC] [TIFF OMITTED] T8948.027
    
    [GRAPHIC] [TIFF OMITTED] T8948.028
    
    [GRAPHIC] [TIFF OMITTED] T8948.013
    
    [GRAPHIC] [TIFF OMITTED] T8948.029
    
    [GRAPHIC] [TIFF OMITTED] T8948.030
    
    [GRAPHIC] [TIFF OMITTED] T8948.031
    
    Mr. Gibbons. This is the third iteration of legislation 
affecting the national cooperative geologic mapping program 
within the U.S. Geological Survey. In the 102nd Congress, our 
colleague Nick Rahall of West Virginia sponsored a bill which 
became law, establishing the NGMA. In passing that measure, 
Congress voted for the practice of the USGS using a portion of 
its apropriation for geologic mapping to support the various 
State geologic surveys in cooperative efforts to prioritize 
national and State needs and then to start in on the identified 
workload. The original bill was reauthorized and amended 
through this Subcommittee in 1997, and now we are here to 
review H.R. 1528, which seeks to reauthorize the program from 
fiscal year 2001 through 2005.
    The cooperative geologic mapping program has been 
successful in my view because it is just that, cooperative. 
State geologic surveys and academia both have lots to offer the 
Federal survey in the way of geologic mapping expertise and the 
training of future field mappers, as well as strongly held 
views on where the most immediate mapping needs are. It is not 
a free ride for these groups; the NGMA has always required a 
50-50 match of the Federal dollars passed through by the USGS, 
and a triage takes place in the form of a peer review panel 
before proposals are funded. Thus a good deal of scrutiny of 
projects occurs before either State or Federal appropriated 
dollars are committed.
    As we will hear from today's witnesses, the components of 
this bill remain the same as its precursors, Federal, State and 
educational. What is new, it seems to me is the willingness of 
the administration to support a renewed emphasis on the most 
basic role of the USGS, making maps of the geologic framework 
of our country. I find this attitude refreshing, but I also 
realize it is one thing for the Office of Management and Budget 
to clear testimony in support of the authorization levels in 
H.R. 1528 and yet another thing for the President's budget 
submission to Congress next February to actually ask for the 
increase in funds so authorized. I trust that the folks at the 
Department of the Interior who are already beginning to conjure 
up the fiscal year 2001 budget request are focusing in on the 
USGS's unwavering support for this bill and the benefits it 
brings to have modern geologic maps and adequate scales to 
protect our citizens from geologic hazards and ground water 
contamination or to broadly assess the mineral potential of our 
Federal lands or to otherwise utilize knowledge incorporated in 
a geologic map to make sound land use decisions.
    I would like to say that I am one of the cosponsors of this 
legislation, and I don't want that to unnecessarily influence 
my colleague here, but I now turn to the Ranking Democratic 
Member, Mr. Underwood, for any opening statements that he may 
have.
    Mr. Underwood.
    [The prepared statement of Mrs. Cubin, offered by Mr. 
Gibbons, follows:]

Statement of Hon. Barbara Cubin, a Representative in Congress from the 
                            State of Wyoming

    The Subcommittee on Energy and Minerals meets today to take 
testimony on a bill to reauthorize and amend the National 
Geologic Mapping Act. This is the third iteration of 
legislation affecting the national cooperative geologic mapping 
program within the U.S. Geological Survey. In the 102nd 
Congress our colleague Nick Rahall of West Virginia sponsored 
the bill which became law establishing the NGMA. In passing 
that measure, Congress voted for the practice of the USGS using 
a portion of its appropriation for geologic mapping to support 
the various state geological surveys in cooperative efforts to 
prioritize national and state needs, and then to start in on 
the identified workload. The original bill was reauthorized and 
amended through this Subcommittee in 1997, and now we are here 
to review H.R. 1528 which seeks to reauthorize the program from 
Fiscal Year 2001 through 2005.
    The cooperative geologic mapping program has been 
successful, in my view, because it is just that--
``cooperative.'' State geological surveys and academia both 
have lots to offer the Federal survey in the way of geologic 
mapping expertise and the training of future field mappers, as 
well as strongly held views on where the most immediate mapping 
needs are. Its not a free ride for these groups, the NGMA has 
always required a 50/50 match of the Federal dollars passed 
through by the USGS, and a ``triage'' takes place in the form 
of a peer review panel before proposals are funded. Thus, a 
good deal of scrutiny of projects occurs before either state or 
Federal appropriated dollars are committed.
    As we will hear from today's witnesses, the components of 
this bill remain the same as its precursors--Federal, state and 
educational. What is new, it seems to me, is the willingness of 
the Administration to support a renewed emphasis on this most 
basic role of the USGS--making maps of the geologic framework 
of our country. I find this attitude refreshing. But, I realize 
its one thing for the Office of Management and Budget to clear 
testimony in support of the authorization levels in H.R. 1528, 
and yet another thing for the President's budget submission to 
Congress next February to actually ask for the increase in 
funds so authorized. I trust that the folks at the Department 
of the Interior who are already beginning to conjure up the FY 
2001 budget request are factoring in the USGS's unwavering 
support for this bill and the benefits it brings to have modern 
geologic maps at adequate scales to protect our citizens from 
geologic hazards and groundwater contamination, or to broadly 
assess the mineral potential of our Federal lands, or to 
otherwise utilize knowledge incorporated in a geologic map to 
make sound land-use decisions.

 STATEMENT OF HON. ROBERT A. UNDERWOOD, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Mr. Underwood. Thank you, Mr. Chairman. You always unduly 
influence me.
    I am pleased to welcome the panel of witnesses today who 
are here to discuss reauthorization of the Geologic Mapping 
Act. We need geologic mapping in our society for many 
worthwhile purposes, including emergency preparedness, 
environmental protection, land use planning and resource 
extraction. Over the years, the need for geologic maps has 
grown steadily, but map production has not kept up. The Earth 
provides the physical foundation for our society. We live upon 
it and we use its resources. Therefore, we need to work towards 
a better understanding of the Earth's resources and potential 
dangers.
    Geologic maps are one effective way to convey the Earth 
science information needed for better understanding and 
decision-making by all of us--Federal agencies, State and local 
governments, private industry, and the general public alike.
    The National Geologic Mapping Act of 1992 authorized a 
national program of geologic mapping to be accomplished through 
a partnership with State geologic surveys, academia, the 
private sector, and the USGS. This partnership is essential if 
we are to develop the extensive amount of material needed for 
informed decision-making.
    Mr. Chairman, I look forward to hearing the testimony of 
today's witnesses.
    [The prepared statement of Mr. Underwood follows:]

Statement of Hon. Robert A. Underwood, a Delegate in Congress from the 
                             State of Guam

    I am pleased to welcome the panel of witnesses today who 
are here to discuss reauthorization of the Geologic Mapping 
Act.
    We need geologic mapping in our society for many worthwhile 
purposes, including emergency preparedness, environmental 
protection, land-use planning, and resource extraction.
    Over the years, the need for geologic maps has grown 
steadily but, map production has not kept up. The earth 
provides the physical foundation for our society--we live upon 
it and we use its resources. Therefore, we need to work toward 
a better understanding of Earth's resources and potential 
dangers.
    Geologic maps are one effective way to convey the earth-
science information needed for better understanding and 
decision-making by all of us--Federal agencies, State and local 
governments, private industry, and the general public alike.
    The National Geologic Mapping Act of 1992 authorized a 
national program of geologic mapping to be accomplished through 
partnership with State geological surveys, academia, the 
private sector, and the USGS. This partnership is essential if 
we are to develop the extensive amount of material needed for 
informed decision making.
    I look forward to hearing the testimony of today's 
witnesses.

    Mr. Gibbons. I thank the distinguished Ranking Democratic 
Member on the panel.
    I would now like to introduce the first panel that is 
before us here. Dr. Patrick Leahy, chief geologist for the U.S. 
Geological Survey, testifying for the Department of the 
Interior; Dr. Larry D. Woodfork, State Geologist of West 
Virginia testifying for the West Virginia Geological and 
Economic Survey and the Association of American State 
Geologists; and Dr. William A. Thomas, Professor of Geosciences 
at the University of Kentucky testifying for the American 
Geological Institute.
    Gentlemen, I know that we have invited you here under the 
guidelines of having up to 10 minutes for your testimony. Let 
me encourage you that if there is anything that you can do to 
expedite this, to make this matter go quickly, it would be 
appreciated. And also your full statements will be entered into 
the record without objection.
    The Chair would now recognize Dr. Leahy.

   STATEMENT OF DR. P. PATRICK LEAHY, CHIEF GEOLOGIST, U.S. 
       GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Dr. Leahy. Thank you, Mr. Chairman. I am pleased to be here 
today to express the Administration's support for geologic 
mapping, House bill 1528 and Senate bill 607. These are 
identical bills that would reauthorize the National Geologic 
Mapping Act of 1992.
    I would like to begin by emphasizing the close coordination 
and agreement between the U.S. Geological Survey and the 
Association of American State Geologists on this 
reauthorization bill and on geologic mapping in general. With 
the development of digital mapping technology, geologic mapping 
has experienced a renaissance in both its use and 
applicability.
    The reason for this growth is quite simple. Geologic maps 
are increasingly needed to bring together and interpret 
information about the Earth. Geologic maps are used by land, 
water and other natural resource managers at Federal, State and 
local levels and by the private sector to achieve the most 
efficient use of the Earth's resources. Economic growth, as you 
know, is driven largely by access to the Earth is resources. 
Geologic maps provide the spatial framework to locate energy, 
construction materials and other mineral resources. They also 
constitute the framework to locate and monitor the cleanliness 
and availability of groundwater resources.
    To the extent possible, humans must be safe from natural 
hazards. Although earthquakes, volcanic eruptions, landslides 
and floods cannot be stopped, recognizing and planning for 
these dangers significantly minimizes the damages and costs of 
disasters. Identifying the location of hazardous areas on 
geologic maps allows land managers, industry and the public to 
predict potential losses and to develop strategies to mitigate 
these impacts.
    Unlike topographic maps, which show the elevation of the 
Earth's surface, geologic maps display the array of different 
types of soils, sediments and rocks that are present both at 
and below the surface of the Earth. Advances in computer 
technology and the development of Geographic Information 
Systems, permit map users to display and analyze map 
information in three dimensions. This ability allows non-
geologists to understand and use geologic maps more readily, 
which has further increased the demand.
    There are three components of the program and all three 
components contribute to the construction of the National 
Geologic Map database. The initial phase of the database is an 
Internet-based catalogue of printed geologic maps.
    The second phase of the project is under way to adopt 
standards for GIS use and to provide access and delivery of 
digital geologic map data on the Internet. Through the three 
components that you mentioned, the program conducts geologic 
mapping in all 50 States.
    In concluding my remarks, I would like to state for the 
record that the National Geologic Mapping Act has been 
instrumental in helping focus attention on the Nation's need 
for a new generation of high-quality geologic maps. The 
Administration supports reauthorization and urges support for 
this legislation.
    Thank you, Mr. Chairman, for the opportunity to express my 
views and those of the Geologic Survey on the benefits of the 
Mapping Act and the value of reauthorizing this program. I will 
be happy to answer any questions that you might have.
    Mr. Gibbons. Thank you very much, Dr. Leahy. I appreciate 
your testimony. It was very helpful and we are also very glad 
to see the administration in such strong support of the 
reauthorization Act.
    [The prepared statement of Mr. Leahy follows:]

 Statement of Patrick Leahy, Chief Geologist, U.S. Geological Survey, 
                    U.S. Department of the Interior

    Madam Chairwoman, I am pleased to be here today to express 
the Administration's support for H.R. 1528 and S.607, identical 
bills that would reauthorize the National Geologic Mapping Act 
of 1992.
    I would like to begin by emphasizing the close coordination 
and agreement between the USGS and the Association of American 
State Geologists (AASG) on this reauthorization bill and on 
geologic mapping in general. The bill was reviewed by the 
Federal Advisory Committee for the National Cooperative 
Geologic Mapping Program in April of 1998 and we have been in 
close and frequent communication with the AASG on all aspects 
of the bill since that time.
    The principal changes in this reauthorization bill are: 
First, an increase from approximately 20 percent to 48 percent 
of new funds that will be made available for matching-funds 
grants to State geological surveys, and second, an increase in 
the authorization levels. These changes are the result of an 
increased demand for geologic maps and a renewed emphasis by 
the USGS on one of our most basic mission responsibilities: 
producing objective and authoritative geologic maps and 
information systems, and represent an increased capacity of the 
States to provide matching funds. The authorization levels 
contained in the bill are not assumed in the Administration's 
current outyear funding levels and represent a significant 
challenge in terms of acquiring, in the years to come, the 
necessary resources through the Administration and 
Congressional budget and appropriations process.
    At recent public forums in Alaska, California, Indiana, 
Ohio, and Virginia, and in opinion surveys conducted by State 
geological surveys, we have heard a consistent message--more 
geologic mapping is needed, and geologic mapping is considered 
as a principal strength and responsibility of the USGS and our 
State survey partners. In response, the President's FY 2000 
budget proposes an increase of approximately 8 percent in 
funding for the Geologic Mapping Program.
    With the development of digital mapping technology, 
geologic mapping is experiencing a renaissance in its use and 
applicability. We anticipate increased demand for digital 
geologic maps in the future. The reason for this growth is 
simple, geologic maps are increasingly needed to bring together 
and interpret information about the Earth. Geologic maps are 
used by land, water, and natural resource managers at the 
Federal, State and local levels of government and by the 
private-sector to achieve the most efficient use of Earth 
resources in a way that is at once both sustainable and 
economically viable.
    The economy is driven by access to the Earth's resources, 
among other things. Geologic maps provide the spatial framework 
to locate energy resources such as coal, petroleum, and natural 
gas; construction materials such as sand, gravel, limestone, 
and building stone; soil and rock types that enhance 
agricultural productivity; and metals and other mineral 
resources as diverse as gold and fertilizer. They also 
constitute the framework to locate and to monitor the 
cleanliness and availability of our ground-water resources.
    To the extent possible, humans must be safe from natural 
hazards. Although hazardous events such as earthquakes, 
volcanic eruptions, landslides and floods cannot be stopped, 
recognizing and planning for these dangers significantly 
reduces the damages and costs of disasters. Identifying the 
location of hazardous areas on maps allows land managers, 
industry, and the public to predict potential losses, and 
develop strategies to minimize these losses. Geologic mapping 
is the principal means for discovering and recording areas that 
will be affected by natural hazards and geologic maps and 
Geographic Information Systems are the principal means for 
communicating the dangers and risks.
    Unlike topographic maps, which show the elevation of the 
earth's surface and can increasingly be produced using remote 
sensing methods, geologic maps display the array of different 
types of soils, sediments, and rocks that are present at and 
below the surface of the Earth. Advances in computer technology 
and the development of Geographic Information Systems permit 
map users to display and analyze map information in three 
dimensions. This new ability to visualize geologic map 
information allows non-geologists to understand and use 
geologic maps more readily, which has further increased demand.
    The geologic map has been a keystone product of the U.S. 
Geological Survey through its 120-year history. As reflected in 
the President's FY 2000 budget proposal, the USGS is again 
making geologic mapping a high priority. The Geologic Mapping 
Act of 1992 anticipated the increased demand for geologic 
mapping, and the reauthorization bill before this Committee 
will assist USGS and our partners in the States and 
Universities in responding.
    To meet the need for new maps, our response must be 
coordinated with both those who use geologic maps and those who 
produce them. The broadest range of stakeholders must determine 
what information is needed so that our mapping efforts are well 
targeted. All of those who prepare geologic maps, from the U.S. 
Geological Survey to State geological surveys and the academic 
community, must work cooperatively to maximize each other's 
strengths and to avoid duplication. It is in this cooperative 
spirit that the National Geologic Mapping Act was written, and 
under which the National Cooperative Geologic Mapping Program 
was built.

NATIONAL COOPERATIVE GEOLOGIC MAPPING PROGRAM

    The National Cooperative Geologic Mapping (NCGM) Program 
was established by the National Geologic Mapping Act of 1992. 
Through involvement with private industry, policy makers, and 
the public, the program seeks to ensure that mapping efforts 
are focused on priority areas. The program uses stakeholder 
input to determine what formats are most needed as new geologic 
maps are being produced in digital formats and indexed for 
delivery on the Internet. The NCGM Program has been designed so 
that the Nation will have the accurate geologic maps needed to 
address tomorrow's problems. To this end, the following goals 
are being pursued:

        <bullet> Continued enhancement of outreach to stakeholders 
        ensures that our maps address societal priorities and are 
        produced at appropriate scales and in forms that are easily 
        accessible and usable. For example, on February 24, 1999, the 
        NCGMP participated in three separate public stakeholder 
        meetings to discuss the availability and quality of water 
        resources in New Mexico, the value of 3-dimensional earth 
        science information for the Great Lakes Region, and the 
        mitigation of geologic hazards in the Pacific Northwest. The 
        net effect of this enhanced outreach is the design of geologic 
        mapping projects that address high-priority issues and the 
        incorporation of local and regional priorities into a national 
        agenda for geologic mapping,
        <bullet> Expanded cooperative mapping with the State geologic 
        surveys and academic institutions, and expanded cooperation 
        with other Federal agencies, and private-sector firms to 
        enhance the usefulness of map information and data.Development 
        of metadata (data about data) for the National Geologic Map 
        database and development of standards and data models to make 
        geologic maps accessible through the Internet.
    The NCGMP supports the Mapping Act through three main 
components FEDMAP, STATEMAP, and EDMAP. Since its authorization 
by the National Geologic Mapping Act in 1992, the Geologic 
Mapping Program has worked with the States and Universities of 
the nation to produce more than 4,000 new maps and related 
scientific reports for high-priority areas in virtually every 
state of the Union. However, the job is far from complete. The 
7.5 minute-geologic quadrangle map is the common denominator 
for Federal and State mapping, and this scale of work is widely 
accepted as the starting point for more detailed site-specific 
studies conducted by private industry. However, there are more 
than 50,000 such quadrangles across the nation, and high-
priority areas must be re-mapped periodically to incorporate 
new scientific concepts, new technology, and new demands from 
the public. For example, most of the geologic mapping in the 
upper Mid-west was done more than 80 years ago, less than 2 
percent is available at the 7.5 minute quadrangle scale, and an 
even smaller fraction is available in modern digital formats.
    Early generations of geologic mapping were focused on 
locating mineral resources. This remains a focus in many areas 
of the country. However, the missions of the Federal and State 
geological surveys and the needs for geologic maps have 
expanded. For example, we are now making three-dimensional 
geologic maps to meet the needs of a nation that is 
increasingly turning to ground water for drinking, 
agricultural, and industrial uses.
    The Federal-mapping component (FEDMAP) currently consists 
of 18 regional geologic mapping and synthesis projects. 
Government and private-sector clients and cooperators are 
involved in planning new FEDMAP projects. The NCGMP has 
increased interactions with other USGS programs and with State 
survey partners during the last four years in order to share 
expertise, leverage financial resources, and to respond 
directly to customer needs. Due to this change, the scientific 
emphasis of the program has shifted to issues that increasingly 
affect society and human health such as:

        <bullet> Discovery and protection of ground water
        <bullet> Identification and mitigation of natural hazards
        <bullet> Assessment of our nation's mineral and energy 
        resources
        <bullet> Establishment of scientific baselines for 
        environmental restoration
        <bullet> Land resource assessment in support of infrastructure 
        needs
    The State mapping component, STATEMAP, awarded 3.8 million 
dollars to 45 states in FY 1999, a record number, and every 
Federal dollar was matched by a State dollar. The awards will 
fund more than 150 geologic mapping projects. State Mapping 
Advisory Committees met in all forty-five states during 1998 to 
help the Mapping Program prioritize geologic mapping needs. 
Over 500 individuals from Federal, State, and local government, 
academia, industry, and geoscience consulting firms, 
participated in these meetings. In addition, where the 
priorities of FEDMAP, STATEMAP, and EDMAP geologic mapping 
projects align well, regional coalitions have formed and 
resources are leveraged to maximize efficiency and benefit to 
the public.
    The university-mapping component, EDMAP, is the matching-
funds educational program with universities to train a new 
generation of geologic mappers. In FY-1999 EDMAP awarded 
approximately 380 thousand dollars to 60 geology students at 41 
universities and colleges. Again, each Federal dollar was 
matched. Our effort to help geologic mappers has grown stronger 
each year. This year's proposals showed that the students and 
their faculty advisors are working more closely with mapping 
projects at State geological surveys and the USGS. Student 
mapping is tied more directly to societal needs than in the 
past, and more of these maps are being published by state 
geological surveys.

National Geologic Map Database

    All three components of the National Cooperative Geologic 
Mapping Program contribute to the construction of the National 
Geologic Map Database. The initial phase of the database is an 
Internet-based catalog of printed geologic maps. The index is 
available on the Internet at http://ngmdb.usgs.gov and is being 
populated with metadata (approximately 55 percent of USGS 
holdings are completed as of April, 1999). The second phase of 
the project is underway to adopt standards for GIS use and to 
provide access and delivery of digital geologic map data on the 
Internet. This is an area of continued emphasis in FY 1999 and 
increased effort in FY 2000. The USGS is currently working with 
both producers and users of geologic map information to develop 
draft format, symbols, and technical attribute standards so 
that digital geologic map information can be accessed, 
exchanged, and compared efficiently as part of the National 
Spatial Data Infrastructure.

Federal Partnerships

    The geologic mapping program is developing cooperative 
relationships with Federal partners in addition to our State 
and academic cooperators. The most mature of these is with the 
National Park Service (NPS). In 1995, the USGS and NPS signed a 
Memorandum of Understanding that outlined areas of interaction 
between the two bureaus. The geologic mapping program has 
responded by working with NPS as part of their ``Science in the 
Parks'' initiative to direct a portion of the program's 
geologic mapping and supporting activities toward priorities 
established by NPS. This cooperative program has continued each 
year since 1995. NPS-identified priorities are merged with USGS 
capabilities in FEDMAP projects that create geologic maps and 
related interpretive products to serve the 286 million annual 
visitors to our Nation's parks.
    We are currently conducting geologic mapping projects in 
partnership with NPS at more than a dozen Parks. For example, 
at Death Valley National Park in California, we are partnering 
with NPS, the Department of Energy, and Nye County by making 
geologic maps as the three-dimensional framework for modeling 
the ground-water system that originates in central Nevada, 
flows under the Nevada Test Site and terminates in Death 
Valley. In Shenandoah and Great Smoky Mountains National Parks 
we are making geologic maps that show the widespread 
distribution of landslide hazards and the impacts of landslides 
on mountain stream habitats for trout. And at a variety of 
Parklands across the Nation we are making geologic maps to 
assist the NPS explain the geologic treasures of the Parks to a 
curious and appreciative public.

Examples of Geologic Mapping Projects

    I would like to cite a series of our geologic mapping 
projects on a State-by-State basis and give a brief description 
of the reasons for the mapping in each case. Because this is a 
national program, with projects in virtually every state, it is 
a simple matter to select examples that may have particular 
meaning to the membership of this Committee.

California:
    FEDMAP and STATEMAP efforts are defining the structure and 
history of the San Andreas Fault system and its relation to 
earthquake hazards in the Los Angeles and San Francisco Bay 
areas. Detailed geologic maps produced by these efforts help to 
define seismic hazard zones, enabling local governments to plan 
accordingly. FEDMAP projects are also mapping ground-water 
basins in three-dimensions to support the water resource needs 
of the populous desert region of the state.

Colorado:
    STATEMAP funds support geologic mapping in the Colorado 
Springs and Idaho Springs areas where areas of geologic hazards 
such as landslides, rockfalls, swelling soils, and subsidence 
over underground mines are being mapped. Our FEDMAP project and 
the Colorado Geological Survey are evaluating landslides, 
subsidence and infrastructure resources along the developing I-
70 and Front Range corridors, and assessing sources for salt in 
the Colorado River.

Louisiana:
    Our STATEMAP project supports geologic mapping of the Baton 
Rouge area where a detailed knowledge of active faults is 
necessary to protect critical aquifers from contamination and 
to aid in siting of solid-waste repositories. EDMAP projects in 
Louisiana supported the training of three students at Centenary 
College of Louisiana and the University of New Orleans.
Oregon:
    A FEDMAP project is mapping the earthquake-prone urban 
corridor of western Oregon and Washington. The project locates 
earthquake faults and defines areas that are susceptible to 
liquefaction, ground failure, and damage during earthquakes. 
Availability of ground water, forest health, and seismic and 
landslide hazards are principal issues addressed by STATEMAP 
projects in Klamath Falls, the upper Grand Ronde Basin, and the 
central Willamette Valley. An EDMAP project at Portland State 
University is investigating surface and subsurface water 
interaction in the upper Williamson River.

Nevada
    FEDMAP Projects in Death Valley and the Las Vegas Urban 
Area are investigating geologic controls on regional ground-
water resources in southern Nevada and the potential for 
contamination as the result of underground nuclear testing at 
the Nevada Test Site. These projects are conducted 
cooperatively with the Department of Energy, National Park 
Service, Fish and Wildlife Service and programs within the 
Water Resources Division of USGS.

Rhode Island
    Bedrock and surficial geologic maps of Rhode Island are 
included as part of the National Cooperative Geologic Map 
Database. The database is an effort coordinated jointly by the 
NCGMP and the Association of American State Geologists (AASG). 
The database is available over the World Wide Web and allows 
anyone easy access to detailed geologic map information across 
the Nation.

Texas
    STATEMAP efforts are aimed at defining the extent of the 
Edwards karst aquifer and evaluating source areas for potential 
contaminants. The aquifer is the principal source of water for 
communities in south central Texas that are experiencing rapid 
growth. Information gained from these efforts will meet the 
needs of a variety of professionals that respond to the demands 
placed on the environment and resources of Texas.

Utah
    In cooperation with the U.S. Forest Service, the Natural 
Resources Conservation Service, and the State Division of Water 
Resources, the NCGMP is supporting geologic mapping of the 
Ogden Quadrangle. The area is characterized by active faults 
and landslides that will be evaluated. The detailed STATEMAP 
product will update the previous mapping completed in 1963. The 
geologic data will form the foundation for a comprehensive 
Geographic Information System database for the area.

Washington
    A FEDMAP Project is a key component in the USGS Urban 
Hazards Initiative in the Puget Sound region, which is 
coordinated with FEMA's Project Impact study of Seattle. The 
NCGMP project role is mapping and defining the regional geology 
work and fault structure to better understand earthquake and 
landslide hazards.

Wyoming:
    Geologic mapping of the Lander/Riverton area is underway by 
our STATEMAP project. This area was targeted for increased 
emphasis by the Wyoming Business Council to promote economic 
development. Geologic mapping is also being done in a number of 
areas where Environmental Protection Agency and the Wyoming 
Geological Survey are studying aquifer vulnerability to 
contamination from pesticides.

Conclusion

    Madam Chairwoman, in concluding my remarks, I would like to 
state that the National Geologic Mapping Act of 1992 has been 
instrumental in helping focus attention on the Nation's need 
for a new generation of high-quality geologic maps. The 
Administration supports reauthorization and urges bipartisan 
support for this legislation. Thank you, Madam Chairwoman for 
the opportunity to express the views of the U.S. Geological 
Survey on the benefits of the National Geologic Mapping Act and 
the value of reauthorizing this program. I would be happy to 
respond to any questions you may have.

    Mr. Gibbons. I turn now to Dr. Larry Woodfork for your 
testimony, sir.

 STATEMENT OF DR. LARRY D. WOODFORK, WEST VIRGINIA GEOLOGICAL 
  AND ECONOMIC SURVEY, AND PRESIDENT, ASSOCIATION OF AMERICAN 
                        STATE GEOLOGISTS

    Dr. Woodfork. Thank you, Chairman Gibbons.
    I come before you as State Geologist of West Virginia and 
current President of the Association of American State 
Geologists. I have 35 years of experience in geoscience 
enterprise in academia, the private sector and government. The 
group that I am speaking for today, the Association of American 
State Geologists, represents a group that has been extant since 
1908, composed of the State geologists in the 50 States, as 
well as those in equivalent positions in the territories, 
protectorates and possessions of the United States.
    Over the 70-year period that this group has been extant, 
they have brought the very vital State perspective to 
geoscience issues facing the Nation. The State geological 
surveys--the very first geological survey was established in 
1823 in North Carolina. When the Federal survey, the USGS, was 
established in 1879, there were already extant 35 geological 
surveys, 25 east of the Mississippi and 10 west.
    In the intervening 120 years since the Federal survey was 
established, the State geological surveys have interacted 
continuously with the Federal enterprise, usually in a mutually 
beneficial and supportive role to promote the needs of the 
Nation and the products that fed the engines of the great 
enterprise that we enjoy today in the United States. The 
geological maps that were produced by both of those groups led 
to the economic development that largely--the publicly 
available information that allowed our Nation to grow and 
prosper out there.
    The National Geological Mapping Act is the latest iteration 
of those mutually beneficial enterprises. I believe that most 
of my colleagues would share my view that over the years that 
is the best of the best. I will tell you why I think that to be 
the case. It is the one that has been most closely coordinated. 
It has resulted from joint planning, and the products that come 
out of it are prompt; you get a lot of bang for your buck.
    The State map component, which I am going to spend a couple 
more minutes on, the one that I am the most familiar with, is 
one that I can absolutely attest to the fact that the 
priorities that are established within that component are set 
by State advisory committees within the respective States. They 
reflect real societal needs out there.
    The advisory panels are composed of people from academia, 
the private sector, individual citizens, organizations. They 
reflect the real needs of society. The awards that are given 
under that--and it is a 50-50 match, and the States actually 
have much more money to ante up than has so far been advanced 
by the Federal Government, are awarded on a competitive peer 
reviewed process.
    The national panel consists of State geologists and feds. 
There is strict accountability for the spending of those funds. 
If you don't produce, your proposal will not be received 
favorably the next time; I can assure you of that. I know 
many--it is certainly not an entitlement program.
    There are many more proposals that are advanced than are 
ever funded. So, in summary, what I will tell you, in my 
experience, this is a program that is an outstanding example of 
a successful State-Federal partnership to the benefit of the 
Nation. I would encourage you--and I know that you will hear on 
this Subcommittee from the State geologists in your respective 
States, specific examples of what I am telling you.
    It is a great program. It has broad support, I know it 
does, throughout academia, industry and government. And I would 
urge you to act affirmatively and favorably on the 
reauthorization and amendment bill before you today and the 
Nation would be the benefit of your wisdom.
    Thank you, and I will entertain any questions now or later 
if you would like.
    Mr. Gibbons. Thank you very much, Dr. Woodfork, and thank 
you again for your ringing endorsement of the State geologic 
surveys as the purveyors of Earth sciences and the guardians of 
geologic truth.
    I also understand from some of the remarks that your 1-year 
sentence as the President of the Association of American State 
Geologists is almost up and you are about to be paroled, soon 
to allow, I believe, a Wisconsin State geologist to serve his 
time in your place.
    I think all of us on this Committee want to wish you well 
and congratulate you for the hard work and service that you 
have given us in that regard.
    With that, we will turn to our next panelist.
    Dr. Woodfork.  Thank you, Chairman Gibbons.
    Mr. Gibbons. You bet.
    [The prepared statement of Dr. Woodfork follows:]

 Statement of Larry D. Woodfork, State Geologist of West Virginia and 
       President, Association of American State Geologists (AASG)

    Good afternoon, ladies and gentlemen. Madam chairman and 
members of the Subcommittee on Energy and Mineral Resources of 
the U.S. House of Representatives Committee on Resources, thank 
you for providing me the opportunity to appear before you today 
in support of H.R. 1528, a bill to reauthorize and amend the 
National Geologic Mapping Act of 1992.
    My name is Larry D. Woodfork. I am the State Geologist of 
West Virginia and the current president of the Association of 
American State Geologists (AASG) (attachment A). Our 
organization was founded in 1908 and represents the geological 
surveys of the 50 states of our nation as well as those in its 
territories, possessions, and protectorates (attachment B). 
Over the past 91 years, our organization has brought the 
critical state perspective on geoscience issues facing the 
nation to the attention of the Federal Government. We cherish 
the trust and confidence placed in us when we are given the 
opportunity to share our perspective with you, and we zealously 
guard our well-earned reputation for geological expertise, 
integrity, candor, and fidelity. In public applied geoscience, 
state geological surveys are truly ``where the rubber meets the 
road!''
    Since the establishment of the first state geological 
survey in 1823 in North Carolina, state geological surveys have 
played a unique and vital role in the scientific establishment 
in our country. They have provided much of the publicly 
available geological information that led to the national 
growth, economic development, environmental quality, general 
prosperity, and quality of life that we enjoy today. Their 
mission remains of equal importance to our nation's future.
    State geological surveys had already been established in 35 
states prior to the establishment of the U.S. Geological Survey 
(USGS) in 1879. Over the past 120 years, the state geological 
surveys and the USGS have interacted nearly continuously, 
usually in a cooperative and mutually beneficial manner to, 
jointly and separately, provide the nation and its citizens 
with relevant, credible, and timely geologic maps, information, 
and expertise on energy, mineral, water, land, biological and 
environmental resources, as well as on geological hazards such 
as earthquakes, volcanoes, landslides, and the like. No other 
external organization has the institutional memory or in-depth 
knowledge of U.S. Geological Survey programs that we in AASG 
possess.
    The long history and heritage of USGS-state geological 
survey interaction and collaboration in geoscience is replete 
with a multitude of successful and beneficial joint programs 
and projects. Among the myriad examples of such programs, 
however, the consensus of my colleagues within AASG, and 
generally throughout the entire geoscience community, would be 
that the National Cooperative Geological Mapping Program 
(NCGMP) represents the ``best of the best.'' Over the past 
seven years, it has provided the nation with a multitude of new 
critically needed geologic maps in the most effective and cost-
efficient manner. It has become the model for joint planning, 
close coordination, and prompt delivery of products. It's a 
great state-Federal partnership success story in which we can 
all take justifiable pride!
    Because the reauthorization and amendment bill before you 
today has been jointly crafted and closely coordinated between 
the U.S. Geological Survey and our association (AASG), it 
represents the latest step in the continuing evolution of the 
program and encompasses significant improvements in what was 
already a good program with a solid reputation and widely 
acknowledged record of cost-efficient high productivity of 
critically-needed, mission-oriented products.
    The recommended reauthorization funding levels as amended 
and percentages in the proposed legislation were similarly 
arrived at through joint deliberation based on past experience, 
future needs, and capabilities. They are honest, uninflated, 
fair, realistic, and verifiable funding figures required to 
continue and advance the program to an optimal level. There is 
no ``smoke and mirrors,'' no ``fat nor fluff,'' no ``waste, 
fraud, or abuse'' in the reauthorization and amendment 
recommendations.
    I am sure that many, if not all, of you on the Subcommittee 
have already heard directly from, or will shortly hear from, 
the state geologists in your respective states concerning the 
value of the National Cooperative Geologic Mapping Program to 
your state with numerous specific examples. I am equally sure 
that my Federal colleagues within the U.S. Geological Survey 
have provided, or will provide, you with additional details and 
specifics concerning various aspects of the program, its 
several components, proposed funding levels, etc. Because I 
know that there is broad support for the program within the 
overall geoscience community throughout the nation, I'm sure 
you will also receive positive feedback and support for the 
program from numerous professional and scientific organizations 
as well as from academia, the private sector, and the many 
users of geologic maps. I note that representatives from 
academia as well as the USGS are on the docket today. The 
reason for such broad support for reauthorization and amendment 
of the program is clear, simple, and unequivocal. 
Reauthorization and amendment at the proposed levels will 
enhance and continue an excellent cooperative Federal-state 
program, and grow it into an optimal one clearly necessary to 
meet the societal challenges we face in the new millennium.
    Before I close, let me make a couple of very important 
points about the part of the National Cooperative Geologic 
Mapping Program that I am personally most familiar with: the 
STATEMAP component. That is the part of the program under which 
state geological surveys match state dollars with Federal 
dollars to conduct prioritized, strategically-targeted geologic 
mapping to meet current and anticipated societal needs. The 
resultant geological maps serve very practical purposes: they 
identify needed resources (energy, minerals and water); they 
identify natural hazards so they might be avoided or their 
impact mitigated; and they provide very important basic 
information requisite for sound land use, environmental 
management, and ecosystem considerations. Such considerations 
and their enlightened resolution are key to maintaining our 
preeminence as a nation and an international leader and power.
    It should be noted that STATEMAP project priorities are set 
by state advisory committees consisting of representatives of 
all user groups: the private sector, government, academia, 
industry, citizens--the entire spectrum of users of geologic 
maps. Therefore, they reflect real, pressing societal needs 
determined at the state and local level, not merely curiosity 
driven research projects (not that such projects are 
necessarily without merit).
    Lastly, but not of lesser importance, funding for STATEMAP 
projects among the participating state geological surveys is 
awarded on a competitive basis through a rigorous peer-review 
process. The national review panel that ultimately reviews 
proposals and allocates funding is composed of state geologists 
and USGS personnel who follow rigorous, mutually agreed-upon 
guidelines, priorities and procedures. STATEMAP is definitely 
not an entitlement program. Not all proposals are funded, as I 
can personally attest.
    To summarize, let me state forthrightly and with complete 
confidence that H.R. 1528, reauthorization and amendment of the 
National Cooperative Geologic Mapping Act of 1992, is a 
critical investment in our country's future that we simply 
cannot afford to pass up! The nation's need for geologic maps 
is clear and compelling and the National Cooperative Geologic 
Mapping Program provides the best mechanism to meet that need. 
Its reauthorization and amendment by H.R. 1528 fully merit your 
support. Your constituents and the entire nation will be the 
beneficiary of the wisdom of your affirmative action.
    Thank you for considering my views and recommendations. 
Should you have any questions now or later, I'll be happy to 
answer them.

    Mr. Gibbons. Dr. William Thomas, the floor is yours.

 STATEMENT OF DR. WILLIAM A. THOMAS, PROFESSOR OF GEOSCIENCES, 
 UNIVERSITY OF KENTUCKY, ON BEHALF OF THE AMERICAN GEOLOGICAL 
                          ASSOCIATION

    Dr. Thomas. Thank you, Mr. Chairman. I am pleased to speak 
as an active participant in the EDMAP program on behalf of the 
reauthorization of the National Geologic Mapping Act. My own 
work emphasizes field geology and three-dimensional 
interpretations from geologic maps. I have been active in 
directing graduate students in geologic mapping in the EDMAP 
program since its inception.
    I am also here to express the support of the American 
Geological Institute for this important legislation. I 
currently serve as Treasurer of AGI, which is a nonprofit 
federation of 34 geoscience societies with a total membership 
of more than 100,000.
    AGI's mission emphasizes geoscience education and public 
awareness of geosciences. We are currently preparing a booklet 
for public information on the applications of geologic maps to 
human needs.
    An extreme special need for geologic maps arose during the 
Second World War when the demands of the war effort and 
disruption of normal import channels threatened the supply of 
strategic minerals. An intense program of geologic mapping was 
instituted, and because of the urgent needs, some geologists 
who otherwise would have been eligible for the military were 
deferred and assigned to the mapping project.
    Normal depletion of natural resources does not reach the 
crisis level of a world war, but systematic mapping will 
support our long-range planning to sustain supplies of 
essential raw materials that fuel our national economy.
    Geologic mapping is a long-term investment in our economy 
because geologic maps portray the spatial distributions of 
rocks and surficial materials that contain the natural 
resources which drive our industry. A single corporation cannot 
make the up-front investment of time and money to construct 
geologic maps of large regions such as whole States. But when 
geologic maps are available, the corporation can focus on areas 
selected for resource potential from the maps.
    For example, the massive construction and preparation for 
the 1996 Olympic Games in Atlanta severely stressed the local 
supply of cement. Geologic maps served to focus an efficient 
search for additional limestone suitable for cement 
manufacture.
    To illustrate another application of geologic maps, I want 
to tell you about an EDMAP project. The Girl Scout camp near 
Rome, Georgia, operated for many years as a primitive camp 
using water from a large spring. Later the camp was modernized 
with indoor plumbing necessitating a septic tank and bleeder 
field. In the absence of a detailed geologic map, the septic 
field was placed on an area of exposure of what later turned 
out to be the aquifer that fed the spring, and illnesses 
developed at the camp soon thereafter. Subsequent testing 
showed that water from a flushed toilet reached the spring 
through the aquifer in less than 48 hours.
    That same aquifer is important as a domestic water supply 
in a large area, and my student, with EDMAP support, made a 
geologic map of the aquifer and related rocks. Now, the 
recharge area is clearly delineated, and protection from 
contamination can be planned.
    Let me show you our EDMAP product from the past year. This 
colorful map accurately shows the distribution of rock types at 
the surface in an area of complex geology. The rock layers 
represented by the bright blue color on the map form the 
primary groundwater aquifer that is used for domestic water 
supplies. The map includes measurements that enable us to 
geometrically project the depth of a specific rock layer below 
ground, as illustrated in these cross sections. Using the map, 
we can identify the area where the aquifer is at the surface 
and must be protected from contamination, and we can calculate 
the necessary depth to drill a water well.
    These projects exemplify the dual objectives of EDMAP, 
training of future mappers and producing geologic maps. More 
than 40 institutions participate in EDMAP each year. From 1996 
to 1999, EDMAP has awarded nearly $1.5 million to 84 different 
universities in 43 States and the District of Columbia. Federal 
funds have been matched, dollar for dollar, by these 
universities, yielding a total investment in geologic mapping 
of approximately $3 million. Proposals for EDMAP projects are 
coordinated with priorities of State geological surveys or the 
USGS, and the proposals are reviewed by a national panel of 
representatives from universities, State surveys, and USGS.
    I currently serve on the panel, and I can attest to the 
high quality and careful planning exhibited in these proposed 
projects. This year well-qualified proposals with well-
justified budget requests substantially exceeded the available 
funds.
    The tangible products of EDMAP are geologic maps. The ED 
part, however, is really fundamental to the program. In recent 
years many academic institutions and funding agencies have come 
to emphasize laboratory science rather than field geology and 
mapping. As a result, the number of geologic mappers being 
trained by university geology departments has declined. At the 
same time, increasing needs for the geologic maps that provide 
information essential to sustain our economy and environment 
now require a more systematic approach to the education of 
geologic mappers for the future. We simply must not lose the 
ability to make geologic maps.
    EDMAP represents a clear national incentive to expand our 
educational efforts in geologic mapping, and it attracts 
students to the topic. A well-done geologic map provides a 
wealth of information as a basis for development of resources 
that fuel our economy and for protection of our living 
environment. The making of a geologic map requires a particular 
educational background, and EDMAP supports that education. I am 
convinced and I hope I have convinced you of the vital role of 
EDMAP and the National Geologic Mapping Act.
    I would be pleased to answer any questions you have.
    Mr. Gibbons. Thank you very much, Dr. Thomas.
    [The prepared statement of Dr. Thomas follows:]

Statement of William A. Thomas, M.S., Ph.D., Professor of Geosciences, 
 University of Kentucky on behalf of the American Geological Institute

    Madam Chair and Members of the Subcommittee:
    I am pleased to be here today to speak as an active 
participant in the EDMAP program on behalf of reauthorization 
of the National Geologic Mapping Act of 1992. My name is 
William A. Thomas. I am Professor of Geological Sciences at the 
University of Kentucky, where I have just developed a new 
course in basic geosciences for undergraduate students in 
science, engineering, agriculture, and science education. A 
primary emphasis of that new course is on the use of geologic 
maps in solving real problems in the respective disciplines of 
the students. My own research and that of graduate students 
whose research I have directed is in field geology with 
emphasis on three-dimensional interpretations from geologic 
maps. I have been active in directing graduate students in 
geologic mapping in the context of the EDMAP component of the 
U.S. Geological Survey (USGS) National Cooperative Geologic 
Mapping Program since its inception.
    I am also here to express the support of the American 
Geological Institute (AGI) for this important legislation. I 
currently serve as Treasurer on the Executive Committee of the 
Institute, which is a nonprofit federation of 34 geoscientific 
and professional associations that represent more than 100,000 
geologists, geophysicists, and other Earth scientists. Founded 
in 1948, AGI provides information services to geoscientists, 
serves as a voice for shared interests in our profession, plays 
a major role in strengthening geoscience education, and strives 
to increase public awareness of the vital role the geosciences 
play in mankind's use of resources and interaction with the 
environment. I am currently working with others in AGI to 
prepare a booklet for public information on the applications of 
geologic maps to human needs.
    Perhaps no greater testimony to the crucial nature of 
geologic maps can be found than the strategic minerals mapping 
program during World War II. The demands of the war effort and 
the disruption of normal import channels threatened the 
adequacy of the supply of vital minerals. In order to locate 
undiscovered essential resources, a focused program of geologic 
mapping was instituted, and the urgency of the circumstances is 
reflected in the fact that some geologists, who were otherwise 
military-eligible, were deferred and assigned to the mapping 
effort. Although the normal depletion of natural resources does 
not reach the crisis-level crescendo of a world war, a program 
to systematically map and assess resource potential will allow 
the best possible long-range planning to sustain the supplies 
of necessary raw materials that fuel our national economy.
    Geologic mapping is a long-term investment in the future of 
our economy, because most manufacturing depends upon natural 
resources from geologic materials, and geologic maps portray 
the spatial distributions of rocks and surficial materials that 
hold those resources. A typical user of natural resources, 
generally a corporation, cannot make the up-front investment of 
time and money to construct geologic maps of large regions such 
as whole states. However, when geologic maps are available, the 
corporate research effort can be focused on smaller areas which 
can be selected for their resource potential from the maps. In 
other words, the availability of a geologic map provides the 
information base that enables private investment to locate and 
develop resources. For example, the massive construction in 
preparation for the 1996 Olympic Games in Atlanta, Georgia, 
severely stressed the local supply of cement. Available 
geologic maps were sufficiently detailed to generally focus the 
search for additional limestone suitable for cement 
manufacture; however, it was quickly realized that more 
detailed maps were needed for this specialized purpose. The 
scale of geologic maps prepared through the EDMAP program is 
suitable for this kind of resource development.
    I could provide similar examples of other applications of 
geologic maps in, for example, coal-mine planning, oil and gas 
exploration, assessment of landslide hazards, and exploration 
for metals. Instead, I want to tell you about an EDMAP project 
with which I was involved and the application it addressed. A 
Girl Scout camp near Rome, Georgia, operated for many years as 
a primitive camp, using water from a large spring. In due 
course, although continuing to use the spring as a water 
supply, the camp was modernized with indoor plumbing, 
necessitating a septic tank and bleeder field. In the absence 
of a detailed geologic map, the septic field was placed on the 
area of exposure of the aquifer that fed the spring, and 
illnesses developed soon thereafter. Subsequent testing showed 
that water from a flush toilet reached the spring through the 
aquifer in less than 48 hours. The same aquifer is important as 
a domestic water supply in a large area around Rome, and my 
student Aaron Baldwin with EDMAP support and University of 
Kentucky matching funds made a geologic map of the aquifer and 
related rocks, so the recharge area is clearly delineated, and 
protection from contamination can be planned. This project 
illustrates the best of EDMAP. We developed our mapping plan in 
coordination with priorities of the geological survey of 
Georgia. The student received an education in the techniques of 
geologic mapping, interpretation of the underground three-
dimensional extent of a particular rock, and the design of a 
research project to solve a problem. The finished map has been 
provided to USGS.
    Let me show you our EDMAP product for the past year. This 
is a geologic map of an area northwest of Fort McClellan in 
Alabama. Springs supply the water for several towns in the 
area, and in addition to the standard observations in making a 
geologic map, my student Greg Graham located the larger springs 
in the context of rock types and geologic structures. Perhaps 
the colorful map does look like a piece of modem art, but it 
accurately shows the distribution of rock types at the surface 
in an area of complex geologic structures. Of particular 
importance, the map includes carefully measured angles of dip 
of the rock layers, so that rocks exposed at the surface can be 
geometrically projected below ground. Using this kind of data, 
we can calculate the depth necessary to drill to a particular 
rock layer at any particular locality. This is important in 
developing groundwater resources. For example, the rocks 
represented by the bright blue color on the map form the 
primary groundwater aquifer that is used for domestic water 
supplies in this part of Alabama. From the map we get two 
important pieces of information: (1) we can identify the area 
where the aquifer is at the surface and must be protected from 
contamination; and (2) for the many farms that use well water, 
we can predict the necessary depth to drill. My student who 
made this map learned the mapping techniques, as well as the 
interpretation of the rocks at depth; and we have provided the 
map to the USGS and the Alabama Geological Survey to be 
publicly available. This project exemplifies the dual objective 
of EDMAP: training of future mappers, and producing geologic 
maps. Greg Graham completed his M.S. degree a few weeks ago, 
and last week I provided a reference interview for the U.S. 
Forest Service in consideration of that agency's hiring this 
new graduate to map landslide potential in the Klamath 
Mountains.
    Mine is but one of more than 40 institutions participating 
in EDMAP each year. In fiscal year (FY) 1999, EDMAP provided 
$382,150 to support mapping projects by 60 students in 41 
universities in 29 states and the District of Columbia. From 
1996 to 1999, the USGS has awarded $1,487,276 to 84 
universities in 43 states and the District of Columbia; Federal 
funds have been matched on a dollar-for-dollar basis by these 
universities, for a total investment of approximately $3 
million. EDMAP has been funded at the authorized percentage (2 
percent of program funds) since 1996. Proposals for EDMAP 
projects are coordinated with a state geological survey or 
USGS, and proposals are reviewed by a national panel of 
representatives from universities, state geological surveys, 
and USGS. I currently serve on the review panel, and I can 
attest to the high quality and careful planning exhibited in 
these proposed projects. Indeed, in this past year, well-
qualified proposals with well-justified budget requests 
substantially exceeded available funds. Important issues 
addressed by EDMAP projects include groundwater assessment and 
protection, landslide hazards, mineral resource potential (both 
metallic and aggregate), mapping of National Park lands, and 
earthquake hazards. The proposals are specifically reviewed for 
a mentoring plan, wherein the supervising faculty member spends 
time in the field with the student mapper. The willingness of 
faculty to participate in this relatively time-consuming 
teaching activity is further testimony to the wide-spread 
support for the training of the next generation of geologic 
mappers.
    Although the tangible products of EDMAP are geologic maps, 
the ``ED'' part is fundamental to the program. As in all fields 
of academic endeavor, students in the geosciences gravitate to 
the current hot topics in which research funding is available. 
In recent years, many of our academic institutions and funding 
agencies have emphasized laboratory science. Laboratory 
research has contributed to significant advances in a broad 
spectrum of the geosciences; however, students with laboratory 
training alone do not develop the perspective necessary to 
understand spatial relationships and three-dimensional 
projections in geologic maps. In other words, many of today's 
geoscience students are not educated in the preparation and use 
of geologic maps that provide information essential to sustain 
our economy and environment. In short, during the past 20 
years, the number of geologic mappers being trained by 
university geology departments has decreased. At the same time 
that our educational system has shifted away from field mapping 
and into the laboratory, the accelerated growth of needs for 
new and more detailed geologic maps requires a systematic 
approach to the education of geologic mappers for the future. 
EDMAP represents a clear national incentive to expand our 
educational efforts in geologic mapping, and it attracts 
students to the topic. Already, EDMAP awards have helped to 
support the training of more than 220 future geologic mappers. 
These young mappers are beginning to enter the workforce and 
make a difference. Informal information indicates that previous 
EDMAP students have been hired by state geological surveys, oil 
companies, and environmental consulting companies.
    A well-done geologic map provides a wealth of information 
as a basis for development of resources that fuel our economy 
and for protection of our living environment. The making of a 
geologic map requires a particular educational background, and 
EDMAP supports that education. I am convinced, and I hope that 
I have convinced you, of the vital role of EDMAP and the 
National Geologic Mapping Act. I would be pleased to answer any 
questions that you may have.

    Mr. Gibbons. I want to applaud each of you for doing 
something that none of us could have done, having been a panel 
of three Ph.D.s, all given 10 minutes to talk about your field 
of specialty and having completed it within the time allotted 
is a remarkable experience. None of us would have been able to 
do that, at least talk anywhere near that short a time period.
    When you held that map up, I was extremely pleased. It 
reminded me of my youth. I was very good at coloring. In fact, 
I think that I colored all of the walls of in the house and 
became a geologist because I loved to color maps, and that is 
one of the real treasures, I think, of being a geologist, being 
able to map things out and put them into perspective.
    Also, in the interests of full disclosure here, not just 
for the panel but members of the Committee as well, I would 
like to note that we have an adjunct professor with your 
Department of Geoscience at the University of Kentucky and the 
Kentucky geologic survey. David Wunsch has been an AGI-
sponsored Congressional Science Fellow with this Subcommittee 
for the past 9 months.
    I have had the great pleasure of having him out to 
Subcommittee hearings in Nevada as well. I did this because of 
the excellent cooperative spirit in the Act that is fostered 
between the Federal Government, States, and academic 
institutions.
    I would ask now for unanimous consent to place a letter 
from the National Association of State Universities and Land-
Grant Colleges that was addressed to the chairman, Barbara 
Cubin, on H.R. 1528, expressing their support for this bill 
into the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8948.032
    
    Mr. Gibbons. To the Members of the panel, we have allowed 
you 10 minutes. You have been very gracious in that fact. We do 
limit ourselves to 5 minutes in terms of our own questions, and 
let me take the lead and start my 5 minutes and go back to Dr. 
Leahy.
    I just want to thank you again for your comments regarding 
the administration's support for this. You state in your 
testimony that one of the USGS's goals is to expand cooperative 
mapping with State surveys, academic institutions and other 
Federal agencies in the private sector.
    Can you elaborate upon the role of the private sector and 
the role it plays in cooperative efforts with the USGS related 
to geologic mapping?
    Dr. Leahy. Of course, as you know, geologic mapping is a 
research activity. However, there is considerable support of 
activities that we do through contracting with the private 
sector. These include such things as aerial photography, 
geophysical surveys, the use of geographic information systems, 
and the acquiring of the hardware and software associated with 
that and base map materials.
    All of these maps are prepared on a topographic base. All 
those base maps come from our National Mapping Division. Many 
of their activities, a large percentage, are contracted out to 
the private sector.
    Mr. Gibbons. Dr. Woodfork, I noticed in your testimony, in 
both in your written and verbal testimony, that you say that 
the State geologic surveys and the USGS--I use the word 
emphasized, you usually interact in a cooperative and mutually 
beneficial manner.
    With that testimony, are you suggesting that there are 
times when the two agencies may not interact as well and maybe 
there should be some improvements? Would you care to expand on 
this?
    Dr. Woodfork. There is always room for improvement. There 
no doubt have been times in the past and probably will be in 
the future that we might not share the same perspective because 
the States represent the State interests and the Federal survey 
has a different perspective; the Federal issue may have 
considerations in it that we don't make. I would say that that 
has generally been the loyal opposition role that we might 
play. It is not uncommon, the dynamic tension that probably 
always exists between the Federal Republic and the States that 
comprise that probably has led to all of our benefit over the 
years. It is not--it is viewed, as you well know, from a 
different perspective. It is not--I did not mean it to be a 
derogatory. It is simply the way I think it is supposed to 
work.
    Mr. Gibbons. Has the availability of State-appropriated 
dollars for West Virginia surveys or your colleagues' surveys 
increased as a result of the initial success of even the 1992 
Act or have these funds always been available if the Federal 
matching funds had been there?
    Dr. Woodfork. You know, I can't say that there is a cause 
and effect there. What I can tell you is that there are 
sufficient funds there to match, the State funds to match 
Federal funds. We did have an ad hoc committee of ASG appointed 
to determine in the foreseeable future--and that is the time 
frame that we were talking about, 2001 to 2005--whether or not 
there would be sufficient State funds to match those. And 
although I can't give you the precise figure, my recollection--
and I will provide it to you later--is that there were at least 
half again as much funds available out there, matching funds 
from State surveys to match the Federal dollars that are 
scheduled in the bill that you have before you.
    Mr. Gibbons. Dr. Thomas, dedication of 2 percent of the 
USGS geologic mapping budget to EDMAP, is that sufficient to 
ensure a continuing stream of skilled geologic mappers that 
will come out of our universities? And where do the schools get 
50 percent matching money which the program requires?
    Dr. Thomas. On the first point, my experience has been with 
the panelists last year. Members of the panel who had served in 
previous years commented on the steadily increasing quality of 
the proposals that the panel was receiving. It was our 
perception that meritorious proposals could not be fully funded 
simply because of total limitation of the budget. Whether that 
falls in the realm of the total budget or percentage, I am not 
sure. But we, as a panel, felt that we should have funded some 
of the proposals at a higher level than we were able to in 
order to assure that the students were able to get the 
experience in the field. The universities matching commitment 
for the most part is in the area of faculty salaries and the 
commitment of faculty time. Because field work, as you well 
know, is a time-intensive activity, and the expectation or even 
the requirement of EDMAP is that the faculty member be actively 
in the field with the student in an instructional sense. So 
there is a substantial commitment of faculty time to this 
activity.
    Mr. Gibbons. As you can see, I didn't stay within the green 
light. I now have a red light here, so I need to turn to my 
colleague from Guam.
    Mr. Underwood, the time is yours.
    Mr. Underwood. Thank you, Mr. Chairman. The colors actually 
seem more psychedelic to me, a throwback to the 1960s, very 
artistic and very graphic.
    First of all, I would like to ask unanimous consent to 
enter a statement by our colleague, Congressman Rahall, 
expressing his words of welcome to Dr. Woodfork.
    Mr. Gibbons. Without objection
    [The prepared statement of Mr. Rahall follows:]

 Statement of Hon. Nick Rahall, a Representative in Congress from the 
                         State of West Virginia

    I would simply like to welcome the distinguished State 
Geologist, from the great State of West Virginia, Larry 
Woodfork, to the Subcommittee this afternoon.
    Larry has held that position for a little over ten years 
now, and throughout that period we have worked closely on a 
number of initiatives to advance the geosciences in not only 
West Virginia, but nationwide.
    One product of that partnership is the National Geologic 
Mapping Act of 1992, which is being considered for 
reauthorization today.
    Larry, welcome to the Subcommittee.

    Mr. Underwood. I want to thank all of you for your 
testimonies. I am very interested and very gratified to hear 
about the levels of cooperation that occurred between the 
Federal Government and the State map and the EDMAP projects. 
Although I fully understand, primarily coming from an academic 
background myself, that there never appears to be sufficient 
effort, level of effort, in trying to provide funding for the 
many and multi-faceted educational programs that those of us 
who come from academia always have lots of time to figure out.
    But I do think that it is a very critical activity that you 
are carrying out.
    I did want to ask Dr. Leahy, in terms of the projects for 
the insular areas, for the territories, if you could give me a 
status report perhaps. When has the Survey last done a geologic 
map for Guam?
    I want to be real specific, if you don't mind, Mr. 
Chairman.
    Dr. Leahy. I think we would prefer to answer that question 
for the record, writing to you in terms of what mapping we have 
done.
    [The additional material follows:]
------------
    The most recent geologic map of the Island is included in: 
Tracey, Joshua I., Jr., Schlanger, Seymour O., Stark, John T., 
Doan, David B., May, Harold G., General Geology of Guam, 
Professional Paper, P 0403-A, p. Al-A104, illus., geol. maps, 
1964.
    In addition, the National Geologic Map Database includes 
three recent publications.
    (1.) Tonikai, J.D., 1997, Rainfall, ground water, and 
ocean-tide data, Guam, 1996: U.S. Geological Survey, Open-File 
Report OF-97-239, scale 1:107000.
    (2.) Otton, J.K., 1993, Preliminary geologic radon 
potential assessment of Guam: U.S. Geological Survey, Open-File 
Report OF-93-292-K, scale 1:200000.
    (3.) Richmond, B.M., and Jaffe, B.E., 1991, Typhoon Russ 
effects on the shoreline of Guam: U.S. Geological Survey, Open-
File Report OF-91-571, scale 1:50000.
    As part of the National Geologic Mapping Act, the National 
Cooperative Geologic Mapping Program has created the National 
Geologic Map Database (NGMDB) to serve as a ``national 
archive'' of geologic maps. The initial phase of the database 
is an Internet-based catalog of printed geologic maps. The 
index is available on the Internet at http://ngmdb.usgs.gov and 
is being populated with metadata (approximately 90% of USGS 
holdings as of 6/99). The second phase of the project is 
underway to adopt standards for GIS use and to provide access 
and delivery of digital geologic map data on the Internet.

    I will point out that the initial passage of the National 
Geologic Mapping Act in 1992, did not include the territories 
as eligible in terms of participating in the State-map element 
of the program. However, that was changed in the last 
reauthorization to include Puerto Rico, Guam, the Virgin 
Islands and so forth. So they are now eligible for the funding 
under this program.
    We have been working with Puerto Rico, but I don't think 
that we have worked with the other territories in the context 
of this program, although we have done geologic mapping in 
those areas.
    Mr. Underwood. But I am sure that you are more than willing 
to work with them if the occasion arises?
    Dr. Leahy. Yes.
    Mr. Underwood. I know that part of the responsibilities for 
the Geologic Survey have to do with providing information for 
the economic utility of mineral resources. And one of the 
issues that always comes to mind in an insular area is the EEZ, 
the exclusive economic zone, which is most often thought of in 
terms of fishing.
    We just had a hearing a few weeks ago on methane hydrates. 
There has also been a lot of discussion about the possibility 
of mining manganese nodules on the ocean floor. What thought 
has been given to the issue of mapping those potential economic 
resources which are under the jurisdiction of an exclusive 
economic zone?
    Dr. Leahy. That is a complicated question, but let me try 
to answer it. First of all, the National Geologic Mapping Act 
is a land-based program. So the mapping activities that are 
supported under this particular program are focussed on land--
not on sea bottom mapping.
    However, in 1983, the USGS, under our Coastal and Marine 
Geology Program, began a major effort to map the sea bottom of 
the EEZ and that work is completed. So we have complete digital 
imagery of sea floor conditions for the entire EEZ.
    Now, the next step has not been taken in terms of 
evaluating those for mineral potential, at least not on a 
national scale. Certainly they have looked at individual areas 
of interest. Again, it is a different program and I would be 
glad to provide you information about the Coastal and Marine 
Program.
    [The above mentioned material follows:]

    [GRAPHIC] [TIFF OMITTED] T8948.034
    
    [GRAPHIC] [TIFF OMITTED] T8948.035
    
    [GRAPHIC] [TIFF OMITTED] T8948.036
    
    [GRAPHIC] [TIFF OMITTED] T8948.037
    
    Mr. Underwood. I would certainly be very interested in 
that. I am trying to understand exactly where that 
responsibility may lie or where that activity should occur, 
whether it should occur in your agency or perhaps in Commerce. 
I think it is a matter that should be pursued.
    Perhaps the gentleman from West Virginia or people from 
academia might venture a comment on that. Have you given any 
thought to that issue?
    Dr. Woodfork. Age before beauty.
    Dr. Thomas. I am afraid my activities are also quite land-
based, coming from Kentucky.
    Mr. Underwood. We may have to teach you how to swim then.
    Dr. Thomas. I did want to comment on the map. We have 
thought that possibly one way to improve the overall budget for 
EDMAP would be if we could sell this as a work of art.
    Mr. Underwood. Very good.
    Dr. Woodfork. I deal with Paleozoic oceans to the extent of 
many eons ago. I have tried to sell that program to the Mineral 
Management Service, that those Paleozoic coastlines should be 
eligible for consideration thereto, so far unsuccessfully. I 
cannot give you any specific insight into the manganese mapping 
issues on the current ocean base. I think it is a project 
worthy of merit.
    Mr. Underwood. Okay. Thank you very much.
    Mr. Gibbons. Thank you very much, Mr. Underwood. We will 
have just one quick second round of questions to kind of clear 
things up here and then certainly allow you gentlemen to be 
released from the Committee here.
    Dr. Leahy, let me ask a question about the process, the 
mapping that has taken place since the 1879 evolution of the 
USGS using the 7\1/2\-minute quadrangle scale, which is the 
normal scale. Has any State been adequately mapped at that 
scale since your testimony only relates to a 2 percent coverage 
that you stated in there?
    Dr. Leahy. I think the Nation right now has about 20 
percent coverage of modern geologic maps at a 7\1/2\ minute 
scale, so we have a long way to go. The only States that are 
fully mapped at a 7\1/2\ minute scale are Kentucky and 
Connecticut. So we do not have complete coverage at 7\1/2\-
minute scale except for those two States.
    Mr. Gibbons. Let me ask a question, Dr. Leahy, for the 
chairwoman of this Committee who is unavoidably absent today 
due to an illness. But she wanted me to ask about your 
testimony mentioning a project in the Lander-Riverton area of 
Wyoming as an ongoing example of a State map component of this 
cooperative program and that local business councils had sought 
this work.
    Are you familiar yet or are you apprised of any preliminary 
results of the result of this mapping?
    Dr. Leahy. In terms of impact or----
    Mr. Gibbons. I presume it is whether there is any result 
from the effort of mapping to date.
    Dr. Leahy. That effort is still in progress. Therefore, I 
can't tell you about the impact of the mapping yet. I suspect 
they are still in the field, compiling the data, producing the 
map. Once it is done,

then I think the stakeholders will be able to use it for 
economic development.
    I believe there is an environmental aspect associated with 
groundwater vulnerability in that area as well.
    Mr. Gibbons. Any significant results that have shown or 
come to light as a result of this mapping in the area?
    Dr. Leahy. Not that I am aware of.
    Mr. Gibbons. Dr. Thomas, let me ask a question about--the 
evolution and the practice of geology has traditionally been 
one in the male world. I know there is a great deal of interest 
now in the society for female geologists. Is the program 
working to improve conditions for development of female 
geologists in your institution and throughout the program?
    Dr. Thomas. I can speak specifically about my own 
institution. I have EDMAP funding for a project that is 
currently under way. The student doing that work is a female 
Ph.D. student at the University of Kentucky. She was in the 
field last year in Alabama, and we have also been notified that 
we have received funding for a second year on her project, and 
she will again be working in the field next winter.
    Mr. Gibbons. Is the trend in female undergraduate 
enrollment in geology or other majors of that type, or grad 
students in the area, is it growing, staying level, or 
declining?
    Dr. Thomas. I am not sure about the rate of growth. It 
certainly has been a steady increase over the years of my 
experience. I was in school in the 1950s. There were very few 
female students in geology at that time. Now I think the 
percentage--I am sorry, I can't say exactly what the percent 
is, but it is a substantial percentage. I think more 
importantly, the women geology students are in all aspects of 
geology.
    We tend to think of some things, particularly field 
geology, for example, as being kind of a male-dominated 
activity. But some of my better field students have been 
females.
    Mr. Gibbons. Dr. Woodfork, final question. In the testimony 
here we see this reauthorization Act allows for, I see, some 
fairly healthy increases in the USGS geologic mapping budget. 
Can you state to this Committee that the portion of those funds 
that go to the State map component of this Act will be able to 
be matched by various State surveys that submit grant proposals 
which make it through the peer review process?
    Dr. Woodfork. Based on our survey, I can state 
unequivocally that the money is there to accomplish that.
    Mr. Gibbons. Thank you very much.
    Mr. Underwood, any further questions?
    Mr. Underwood. No.
    Mr. Gibbons. Gentlemen, I want to again thank you for your 
time and your testimony here today. I would like to ask that if 
the Committee or the staff has further questions, that we may 
submit them to you in writing and that you will respond to 
those written questions as if you were here testifying before 
this Committee, if that is agreeable with you.
    And there is no further business of this panel. The 
chairman

thanks the members of the panel for being here, the 
Subcommittee, and especially the witnesses.
    This Subcommittee now stands adjourned.
    [Whereupon, at 3 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
                     U.S. House of Representatives,
                                            Washington, DC,
                                                     June 25, 1999.
Dr. William Thomas,
Department of Geological Sciences,
University of Kentucky,
Lexington, KY 40505
Dear Dr. Thomas:
    Thank you for testifying before the House Resources Subcommittee on 
Energy and Mineral Resources during the hearing on H.R. 1528, the 
``National Geologic Mapping Reauthorization Act of 1999.''
    Due to time constraints, Members did not have time to ask all of 
their questions about the EDMAP component of the National Geologic Act. 
The Subcommittee would like answers to the following questions:

    1. How much time and ``manpower'' were necesssary to complete the 
geologic mapping of the state of Kentucky at the 1:24,000 scale?
    2. What are the differences in geologic education, if any, between 
the current generation of geology students, and the geologic mappers 
that completed this massive mapping project?
    3. Can you explain the role of field camps in teaching geologic 
mapping to geologists? Do EDMAP matching funds play a part infield camp 
training programs?
    4. Can you describe the benefits reaped by your home state of 
Kentucky that resulted from its comprehensive geologic mapping 
coverage?
    We would appreciate if you could provide answers to the above 
questions in the same format as they are asked before July 1, 1999. 
This letter and your reply will be included in the hearing record.
    On behalf of the entire Subcommittee, I look forward to receiving 
your reply to our follow-up questions no later than Thursday, July 1, 
1999.
            Sincerely,
                                             Barbara Cubin,
                                                          Chairman,
                       Subcommittee on Energy and Mineral Resources

  Answers to questions from the Subcommittee by Dr. William A. Thomas
Dear Representative Cubin:
    I enjoyed the opportunity to testify before the House Subcommittee 
on Energy and Mineral Resources during the hearing on H.R. 1528, the 
``National Geologic Mapping Reauthorization Act of 1999,'' and I am 
happy to respond to the additional questions posed in your letter of 
June 25. My responses are numbered to correspond to the questions.
    1. Concerning time and ``manpower'' to complete geologic mapping of 
the entire state of Kentucky at 1:24,000 scale, I can report data 
compiled by the U.S. Geological Survey and the Kentucky Geological 
Survey. The state encompasses 707 quadrangles at 1:24,000 scale. 
Geologic mapping began in 1960. Field work was completed in 1977, and 
the final quadrangle map was published in 1978. The total effort 
required 661 professional man-years, and an estimated more than 200 
different individuals contributed to the mapping. The total budget was 
$20,927,500 over the 18 years of the project. Most of the mappers were 
USGS geologists, but some Kentucky Geological Survey geologists and 
university faculty members were employed in the mapping.
    2. It is difficult to quantify the differences in geologic 
education received by the mappers of the 1960-1978 Kentucky project and 
that offered in current geology programs; however, I can describe the 
primary differences in terms of my own experience. As an undergraduate 
student in 1952-1956, I attended an 8-week summer field course that 
consisted almost entirely of geologic mapping; during the succeeding 
fall semester, each student was required to complete a full geologic 
report on the area mapped. I also took 5 field courses that consisted 
of geologic mapping on Saturdays throughout the academic year. In 
addition, I took a second 8-week summer field course as an elective to 
do geologic mapping in especially challenging areas. The undergraduate 
program that I followed may have emphasized field mapping to a somewhat 
higher degree than some contemporary programs, but an intense 
involvement in field work was characteristic of geology departments of 
that time. Through the years, an increasing sophistication of 
laboratory work in the geosciences, advances in remote sensing 
techniques, and growth of numerous subspecialties in the geosciences 
have resulted in progressive decreases in the time devoted to 
instruction in geologic mapping in the typical curriculum. In response, 
several changes have occurred in the teaching of geologic mapping. Most 
notably, most summer field courses (field camps) are now in session for 
six weeks or less. Part of the reduction in length is driven by cost. 
Field camp is somewhat costly to the student, and university funds for 
off-campus travel are limited. Furthermore, many students depend on 
summer jobs for income, and field camp takes much of the summer. In 
addition to the simple reduction in length, many summer field courses 
now include exercises in a variety of specialized field techniques, 
thereby reducing the amount of time devoted to mapping. Some summer 
field courses are devoted entirely to special topics other than 
mapping; for example, hydrogeology field camps are now common. Each of 
the specialized topics for instruction is appropriate, but none is a 
suitable replacement for the understanding that arises from geologic 
mapping. Most of the specialized courses would benefit from a 
prerequisite of a geologic mapping course. For example, data on 
geologic maps are essential to define the geometry of groundwater 
aquifers that must be known in order to plan water wells, and geologic 
maps show where the aquifer is at the surface (the recharge area) to 
enable protection from pollution. The allocation of time for 
instruction in geologic mapping is a difficult dilemma. The evolving 
techniques and subspecialties are changing and improving our abilities 
to resolve many types of problems; however, geologic maps remain the 
essential tie from all facets of geoscience to the real conditions of 
the Earth. While not every geoscientist must be able to make a high-
quality geologic map, any geoscientist who lacks the ability to read 
and interpret a geologic map is at a serious disadvantage. The only 
effective way to learn map interpretation is by the practice of making 
a map, and this is one essential reason to re-establish an emphasis on 
field geology and mapping. A more direct critical need, however, is to 
maintain a well-trained cadre of field geologists who will be available 
to make the geologic maps that we will continue to need. For this 
purpose, the EDMAP program is crucial. It is a clear mandate for 
geology departments to maintain the teaching of geologic mapping, and 
it involves students as active geologic mappers.
    3. Field courses (field camps) and EDMAP have complementary but 
different missions. The primary purpose of field camp is to take a 
student at an introductory level and provide basic instruction in 
making a geologic map. This is in a learn-by-doing approach, and the 
final product is a geologic map. The sites for study are carefully 
selected so that the students will encounter a suitable level of 
complexity, quality of exposure, variety of rocks and structures, etc. 
Each new class typically works on the same sites; therefore, successive 
years of field camps do not progressively cover a previously unmapped 
region. Each class has the benefit of working on a locality that is 
especially suited to teaching the techniques of mapping. This is really 
necessary to the educational objective. In contrast, EDMAP projects are 
coordinated with priorities defined by the U.S. or state geological 
surveys, and one objective is to map an area for which a map is needed. 
The educational component of EDMAP takes a student who has already 
completed the field camp introduction to geologic mapping and provides 
additional instruction to reach a professional level of competence in 
mapping. In this sense, EDMAP provides a kind of on-the-job training 
that would be appropriate for any senior or graduate student going into 
an industry job. Because of these differences in objectives, a field 
camp should not be expected to generate the deliverables that are 
rightly required of EDMAP projects. Field camp experience, however, may 
lead to the identification of appropriate EDMAP projects, and it is 
essential as preparation for mapping at the skill level required for 
EDMAP. I strongly support the concept of field camp as an essential 
educational enterprise; however, in my opinion, it would be 
inappropriate to use EDMAP funds to support field camps. If other funds 
could be made available, external support would alleviate the cost 
problems of attending field camp described in item 2; however, I would 
not favor diverting those funds from EDMAP which is currently 
underfunded in terms of ability to fully support all deserving 
proposals.
    4. The geologic quadrangle maps of Kentucky are sold to the public 
through the state geological survey and other offices. The numbers of 
these maps that have been sold attest to the usefulness ascribed to 
them. Statistics at the Kentucky Geological Survey show that more than 
105,000 maps were sold between 1965 and 1978; 58,000 of those during 
the last four years of that period, when many maps were being 
published. Predictably, as the various corporations and institutions 
acquired complete sets of maps, the large initial demand began to 
decrease. A measure of the continuing market is in recent sales 
statistics: 3,950 copies in 1996, 3,275 in 1997, and 2,605 in 1998. 
Raster images are being made available as an alternative to the paper 
copies of maps. At present, work is underway to digitize the existing 
geologic maps at 1:24,000 scale, and this level of availability will 
further enhance the many uses of the maps. In particular, the digitized 
maps will expand the use of the geologic maps in the display of many 
kinds data in a GIS format. The sale of maps is but one measure of the 
value placed on these data sets by the general public. Many specific 
uses of the maps are documented, and I will cite a few here as 
examples. Geologic maps are used extensively in the exploration for and 
development of coal resources, one of the mainstays of Kentucky's 
economy. Tracing of coal beds is necessary to extend the area of 
mining, and the geologic maps have been used for that purpose by many 
companies. Documented reports describe the finding of additional coal 
resources at many scattered localities in amounts from one-half million 
to several million tons. A simple example illustrates that a single 
discovery of only 195 acres of 6-foot-thick coal yields a value of 
$21,000,000, the total cost of the entire state mapping project. 
Similar examples of the use of the geologic maps in mining of fluorspar 
in western Kentucky and in petroleum exploration throughout the state 
are available. Several oil and gas operators have reported the 
discovery of new fields as a direct result of the use of the maps. In 
addition to bedrock data, the maps show alluvium along stream systems 
and other surficial deposits. These surficial deposits are important 
resources of clay, sand, and gravel, and the geologic maps greatly 
focus the search for these materials. Nearly every example of the 
development of resources through the use of the published geologic maps 
falls into the category that I described in my previous testimony: a 
corporation cannot invest the time and money to map large areas, but 
where geologic maps are available, they serve to focus the search for 
resources. Clearly, this is working in Kentucky. The geologic maps have 
also proven useful in engineering applications, particularly in highway 
design and construction. For example, a new highway in eastern Kentucky 
through an area prone to landslides was under construction while the 
mapping was being conducted. With the use of the maps, the highway was 
redesigned and relocated greatly reducing the risk of landslides of the 
type that had destroyed earlier parts of the road. The Kentucky 
Department of Transportation now uses complete geologic map coverage as 
part of the design and planning for all new road construction; the up-
front investment in geologic mapping is underwriting this aspect of 
highway construction. The geologic maps are coming to be used 
extensively in studies of groundwater movement and in planning 
protection of groundwater from pollution. For example, in central 
Kentucky, soluble limestone bedrock is susceptible to sinkholes and 
small caverns, and the tracing of these rocks on geologic maps is 
essential to understanding of the flow of surface water into the 
groundwater system. In addition to the geologic maps, numerous other 
reports on the scientific aspects of rocks in Kentucky were generated, 
and the availability of the maps continues to support geological 
research in the state. The maps are useful in archaeological studies of 
Native American sites; for example, a massive sandstone that forms 
numerous rock shelters in eastern Kentucky can be traced from the 
geologic maps. A dollar value is difficult to put on the many benefits 
Kentucky has derived from the geologic mapping project; however, it is 
clear that only a very small part of the increased coal productivity 
alone is more than adequate to pay the total cost of mapping several 
times over.
    During the hearing, I offered my own personal observations without 
documented numbers in response to a question posed by Rep. Gibbons for 
Rep. Cubin concerning the numbers of women in the geosciences. With 
data from the files of the American Geological Institute, I would like 
to enter the following more specific information into the record. 
According to data compiled by the American Geological Institute, women 
have made considerable advances in the geosciences in terms of 
enrollments and degrees granted since 1980. That year, women made up 24 
percent of undergraduate enrollments and 21 percent of graduate 
enrollments. In 1996 (the last year for which data are complete), that 
percentage had grown to 37 percent for undergraduate students and 32 
percent for graduate students. Because of decreasing geoscience 
undergraduate enrollments through that period, the absolute numbers of 
women geoscience undergraduates increased only by 14 percent (from 
7,390 to 8,455). In contrast, graduate enrollments increased, and the 
actual number of women rose 54 percent (from 2,108 to 3,242). In terms 
of degrees granted, women have also seen their numbers rise from 25 
percent of geoscience bachelor's degrees in 1980 to 36 percent in 1996. 
For master's degrees, the change is from 20 percent to 31 percent, and 
for doctorates, the change is from 10 percent to 22 percent.
    I appreciate this opportunity to provide this additional 
information for the Subcommittee, and I will be happy to respond to any 
further questions you may have.

                                   - 

</pre></body></html>
